No. _ __
TOBIAS 0. REED,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA,
Respondent.

AFFIDAVIT
On this 19th day of August, 2020, I, Anthony G. Lantagne, hereby certify that
this Petition for Writ of Certiorari was sent this same day via First Class, Certified
mail, to the Supreme Court of the United States. I further certify that I have served
by First Class mail and email this same date the required copies to the parties listed
below:
Victoria Johnson
Office of the Attorney General
202 North Ninth Street
Richmond, VA 23219
804-786-2071
oagcriminallitigation@oag.state.va.us
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 19th day of August, 2020.

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me tl}is 19th
y ·o
that the foregoing affidavit is true and ex~cl to t9-e est

1/
/-

, 2020, and attested
no ledge and belief.

